=onsumer
, Watchdog

March 31, 2021

Scott S. Harris

Clerk of the Court

Supreme Court of the United States

1 First Street, N.E.

Washington, D.C. 20543

Re: CVS Pharmacy, Inc. et al. v. John Doe, One et al., No. 20-1374
Dear Mr. Harris:

I represent Respondents in the above-captioned matter. The Petition for a Writ of Certiorari
was filed on March 26, 2021 and docketed on March 31, 2021. The Brief in Opposition is due on
April 30, 2021. Pursuant to Rule 30.4 of the United States Supreme Court, I request a thirty-day
extension of this deadline, to June 1, 2021.

An extension of time is justified as counsel for Respondents have significant pre-scheduled
work commitments in the next 30 days, including motion briefing, depositions, and appellate
briefs. Counsel for Petitioners have informed me that they do not oppose this request.

This request is being submitted in letter form as I am not currently admitted to practice

before the Supreme Court. I am in the process of being admitted.

ry |
Cont S. Flanagan

ce: Lisa S. Blatt

Si

  
 
    

Enu A. Mainigi RECEIVED
Craig D. Singer
Sarah M. Harris APR ~ 2 2021

Sarah L. O’Connor OF THE o,
Katherine M. Meeks PREM COG ERK

Counsel for Petitioners

EXPOSE. CHANGE.
6330 San Vicente Blvd. Suite 250 Los Angeles, CA 90048
Tel: 310-392-0522 » Fax: 310-392-8874

www.ConsumerWatchdog.org
